In The
Supreme Court of the United States
No. ___ _
MARCUS TERRELLE MARSH,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
AFFIDAVIT OF SERVICE
I, Brittany E. Lewis, of lawful age, being duly sworn, upon my oath state that
I did, on the 16th day of December, 2019, hand file forty copies of this Petition for
Writ of Certiorari with the Clerk's Office of the Supreme Court of the United States
and further sent three copies, via First Class Mail, postage prepaid, and one PDF
copy, via email, of said Petition to:
Stacey D. Haynes
OFFICE OF THE U.S. ATTORNEY
1441 Main Street, Suite 500
Columbia, South Carolina 29201
(803) 929-3054
Bob.Daley@usdoj.gov
stacey .haynes@usdoj. gov

Counsel for Respondent

Affiant, Brit
y E. Lewis
THE LEX GRoupDC
1050 Connecticut Avenue, N.W.
Suite 500, #5190
Washington, D .C. 20036
(202) 955-0001

I am duly authorized under the laws of the District of Columbia to administer
oaths.

My Commission Expires:
To be filed for:
Joshua Snow Kendrick
Counsel of Record
KENDRICK & LEONARD, P.C.
Post Office Box 6938
Greenville, South Carolina 29606
(864) 760-4000
josh@jkendrickleonard.com
Arthur K. Aiken
ATTORNEY AT LAW

2231 Devine Street, Suite 201
Columbia, South Carolina 29205
(803) 799-5205
art@aikenandhightower .com
Counsel for Petitioner
Dated: December 16, 2019

